<html>
<title> - TO DISCUSS OVERSIGHT OF THE FOREST AND RANGELAND RESEARCH PROGRAM OF THE U.S. FOREST SERVICE</title>
<body><pre>[Senate Hearing 109-491]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-491
 
 TO DISCUSS OVERSIGHT OF THE FOREST AND RANGELAND RESEARCH PROGRAM OF 
                        THE U.S. FOREST SERVICE

=======================================================================

                                HEARING

                               before the

    SUBCOMMITTEE ON FORESTRY, CONSERVATION, AND RURAL REVITALIZATION

                                 of the

                       COMMITTEE ON AGRICULTURE,
                        NUTRITION, AND FORESTRY

                          UNITED STATES SENATE


                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION


                               __________

                            OCTOBER 27, 2005

                               __________

                       Printed for the use of the
           Committee on Agriculture, Nutrition, and Forestry


  Available via the World Wide Web: http://www.agriculture.senate.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
28-420                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


           COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY



                   SAXBY CHAMBLISS, Georgia, Chairman

RICHARD G. LUGAR, Indiana            TOM HARKIN, Iowa
THAD COCHRAN, Mississippi            PATRICK J. LEAHY, Vermont
MITCH McCONNELL, Kentucky            KENT CONRAD, North Dakota
PAT ROBERTS, Kansas                  MAX BAUCUS, Montana
JAMES M. TALENT, Missouri            BLANCHE L. LINCOLN, Arkansas
CRAIG THOMAS, Wyoming                DEBBIE A. STABENOW, Michigan
RICK SANTORUM, Pennsylvania          E. BENJAMIN NELSON, Nebraska
NORM COLEMAN, Minnesota              MARK DAYTON, Minnesota
MICHEAL D. CRAPO, Idaho              KEN SALAZAR, Colorado
CHARLES E. GRASSLEY, Iowa

            Martha Scott Poindexter, Majority Staff Director

                David L. Johnson, Majority Chief Counsel

              Steven Meeks, Majority Legislative Director

                      Robert E. Sturm, Chief Clerk

                Mark Halverson, Minority Staff Director

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing(s):

To Discuss Oversight of the Forest and Rangeland Research Program 
  of the U.S. Forest Service.....................................    01

                              ----------                              

                       Thursday, October 27, 2005
                    STATEMENTS PRESENTED BY SENATORS

Crapo, Hon. Mike, a U.S. Senator from Idaho, Chairman, 
  Subcommittee on Forestry, Conservation, and Rural 
  Revitalization, Committee on Agriculture, Nutrition, and 
  Forestry.......................................................    01
Lincoln, Hon. Blanche, a U.S. Senator from Arkansas..............    12
Lugar, Hon. Richard, a U.S. Senator from Indiana.................    13
Salazar, Hon. Ken, a U.S. Senator from Colorado..................    05
                              ----------                              

                               WITNESSES
                                Panel I

Bartuska, Ann, Deputy Chief, Research & Development, U.S. Forest 
  Service, U.S. Department of Agriculture........................    02

                                Panel II

Canavera, David, Manager Forest Ecosystem Project, Forest 
  Research, Meadwestvaca Corporation, on Behalf of the American 
  Forest & Paper Association.....................................    20
Daley-Laursen, Steven B., PH.D., Dean, College of Natural 
  Resources, University of Idaho.................................    18
Daniels, Robert A., Extension Professor, Forestry Department, 
  Mississippi State University...................................    24
Schowalter, Bob, State Forestry of South Carolina, South Carolina 
  Forestry Commission, on Behalf of the National Association of 
  State Forestry.................................................    22
Simon, Scott, Director, Arkansas Chapter, the Nature Conservancy.    26
                              ----------                              

                                APPENDIX

Prepared Statements:
    Bartuska, Ann................................................    40
    Canavera, David..............................................    54
    Daley-Laursen, Steven B......................................    45
    Daniels, Robert A............................................    64
    Schowalter, Bob..............................................    60
    Simon, Scott.................................................    68
Document(s) Submitted for the Record:
    Letter of Steven L. Thorson (Business Development Director 
      for Forest Concepts, LLC.).................................    76
Questions and Answers:
    Crapo, Hon. Mike.............................................    80
    Coleman, Hon. Norm...........................................    84



 TO DISCUSS OVERSIGHT OF THE FOREST AND RANGELAND RESEARCH PROGRAM OF 
                        THE U.S. FOREST SERVICE

                              ----------                              


                       THURSDAY, OCTOBER 27, 2005

                                       U.S. Senate,
         Subcommittee on Forestry, Conservation, and Rural 
Revitalization, of the Committee on Agriculture, Nutrition, 
                                              and Forestry,
                                                     Washington, DC
    The subcommittee met, pursuant to notice, at 10:15 a.m., in 
room 328A, Russell Senate Office Building, Hon. Mike Crapo, 
[Chairman of the Subcommittee], presiding.
    Present or submitting a statement: Senators Crapo, Lugar, 
Lincoln, and Salazar.

   STATEMENT OF HON. MIKE CRAPO, A U.S. SENATOR FROM IDAHO, 
  CHAIRMAN, SUBCOMMITTEE ON FORESTRY, CONSERVATION, AND RURAL 
   REVITALIZATION, COMMITTEE ON AGRICULTURE, NUTRITION, AND 
                            FORESTRY

    Senator Crapo. Good morning. This hearing will come to 
order.
    Demands on our forests are increasing, as Americans call 
for an affordable wood supply, a protected environment, 
enhanced wildlife habitat, abundant recreational opportunities 
and, frankly, living space. And these demands are increasing 
while we also face unfortunate events such as the hurricanes 
and fire which take their toll on our resources.
    We must be able to meet these challenges, and research is 
important to ensuring that we have the tools necessary to 
improve forest conditions and meet emerging needs. However, 
more must be done than simply conducting research. We must also 
make certain that the technology developed through this 
research is reaching those who manage and rely on our forests 
and our forest products.
    Additionally, a strong coordination between the U.S. Forest 
Service, the research community, and the end users is key to 
making limited resources meet on-the-ground needs. I continue 
to assert that enhanced coordinated research will maximize the 
use of our forests. From better harvesting techniques, to more 
efficient wood products, to new and innovative uses, we can 
find ways for this renewable resource to provide more benefits 
to more people in an environmentally sustainable manner.
    Besides improving uses, the better and more focused 
research will also allow us to mitigate the impact of damaging 
events like fire, windthrow erosion, disease, and invasive 
species. We can meet these challenges, and research can focus 
our efforts to do so.
    As the Forest Service works to address emerging forest 
research challenges, improvements can always be made. Improved 
collaboration through joint planning by scientists and 
administrators of the Forest Service and universities will 
better enable resources to be targeted toward the most 
beneficial vision for our forestry research.
    We must all work together to see that forestry research 
receives the necessary support and coordination. The goal of 
this hearing is to look at the direction, coordination, and 
long-term plan for forestry research; to examine how we can 
gain better research coordination; and to review how we conduct 
technology transfer, coordinate our long-term forestry research 
focus, and share the workload.
    Our witnesses here today are going to share their insight 
on these issues. And our witnesses today include Ann Bartuska, 
Deputy Chief for Research at the U.S. Forest Service. And 
following her testimony, we will hear from a second panel of 
witnesses which includes university, industry, state forester, 
extension forester, and environmental interests. I am 
particularly pleased that the Dean of the University of Idaho 
Forestry School could be here, and I want to thank you, Dean 
Steven Daley-Laursen.
    I look forward to all of the witnesses and their 
contributions to our collective goal of maintaining the health 
and quality of our Nation's forests.
    However, what I wanted to do before we turn to the 
witnesses was to turn to the other Senators for their 
statements. Right now, you may have noted the bells going off 
at the beginning of this hearing. That is because we are having 
a cloture vote on the floor of the Senate with regard to the 
Labor-HHS appropriations bill, the final appropriations bill 
for the Senate this year; and so some of the Senators are going 
to be delayed.
    And what I think I will do is to go ahead with your 
testimony, Dr. Bartuska. And then, as other Senators arrive, we 
will give them an opportunity to give an opening statement.
    And with that, let's go to our first panel. And Ms. 
Bartuska, you may proceed.

      STATEMENT OF ANN BARTUSKA, DEPUTY CHIEF, RESEARCH & 
     DEVELOPMENT, U.S. FOREST SERVICE, U.S. DEPARTMENT OF 
                          AGRICULTURE

    Ms. Bartuska. Thank you. Good morning, Mr. Chairman. And I 
appreciate the opportunity to testify before the committee on 
the Forest Service's Forest and Rangeland Research Program.
    This is the Forest Service's centennial year, and research 
has been part of the Forest Service since its inception in 
1907. Our research programs have a wide geographic extent, an 
interdisciplinary emphasis, and a steady focus on solving 
problems and providing science for policymakers and land 
managers.
    We have programs in all 50 states, U.S. territories, and 
commonwealths. We have long-term research on 83 experimental 
forests and ranges and 370 research natural areas. We have a 
cadre of about 2,700 employees; of that, 575 are permanent 
scientists. And we work across a large array of different 
research activities.
    From public lands to private forest landowners, our goal is 
to put quality science and information into the hands of the 
users. And I think that is a goal that I understood you were 
just sharing with us.
    I would like to share some examples of the kind of work 
that we do, and to talk a little bit about the array of work we 
have. One of the emphases is science around large-scale 
disturbances. And the ongoing hurricane response serves as a 
good example of this type of research.
    Both Katrina and Rita caused extensive forest damage. Our 
southern station worked with Louisiana, Mississippi, Texas, and 
Alabama state foresters and the forestry associations to assess 
the extent and volume of timber damaged by the hurricanes. The 
station also prepared a directory of all of the mills that were 
in the area, so that private landowners could identify who they 
could sell their down and damaged timber to.
    The station has also then developed groups of scientists 
around key areas, helping landowners reestablish the forests, 
repair damaged streams, restore the urban system, and recycle 
and dispose of damaged lumber and debris; the last with support 
from the forest products lab and their technology units.
    Response to fire is another priority of ours. We have 
established rapid science assessment teams whose job is to get 
out, get science into the hands of the users to guide 
restoration activities, and to provide monitoring following 
major wildfires. We have also developed numerous different 
technology tools to get information about how to make homes 
safe from fire and reduce the risk, our FIREWISE program; so 
again, bringing our science into the hands of the user 
community.
    And the other example I just want to touch on is the threat 
of invasive plants and animals. Most notably and most recently, 
we have established two threat risk assessment centers for 
invasive species; one in the east and one in the west, 
consistent with the goals of the Healthy Forest Restoration Act 
and Title VI, to establish national warning centers. So we 
really have taken this responsibility fairly diligently.
    Just a few examples of what is a much broader program and I 
think gives a sense of the scope that we are involved in; but I 
believe Forest Service research is a national asset.
    One of the most critical things that we do is provide--
through our Forest Inventory Analysis program, or ``FIA''--the 
Nation's forest census. We have been doing this for nearly 75 
years. It is the only program that delivers continuous and 
comprehensive assessments of our forests in a nationally 
consistent manner across all landowners, and gets that 
information in the hands of the users as quickly as possible. 
We are now Internet-ready. In fact, the data can be acquired by 
anyone who goes onsite to really look at that information.
    And then finally, one of our core strengths is our network 
of 83 experimental forests and ranges. These provide a really 
broad representation of the forests of the United States. We 
are actually in any forest type in the U.S. It is a national 
network that has resulted in long-term data sets that are 
looking at environmental change over the last century and 
answering many of today's pressing questions at landscape and 
global scales.
    A critical part of our success is partnerships. I think 
that is part of the reason for the hearing today, is to explore 
all of those different aspects. And I see many of our friends 
who are here.
    To fully realize the benefits of public investments in 
research, the Forest Service is finding better ways to 
effectively translate science findings and technology advances 
into on-the-ground accomplishments. This is a priority for me: 
establishing new working relationships with our university 
community, with other science organizations, by taking our more 
than 1,000 cooperative agreements that we now have with 
universities and expanding those, being able to give us some 
flexibility in the types of research we do. I think those are 
really one of the foundational aspects of our organization.
    And then, last, I guess what I would like to close with is 
really to just bring us back to what we are all about. Our 
Nation depends on our forests and rangelands to meet a 
multitude of needs. And our goal is to provide the scientific 
knowledge and tools necessary to manage, restore, conserve, and 
increase the productive capacity of our forests and rangeland 
systems.
    I am very enthusiastic about the work we are doing, but I 
know we have much more to be doing in the future. So thank you 
very much for this opportunity, and I will be happy to answer 
any questions, as appropriate.
    [The prepared statement of Ms. Bartuska can be found in the 
appendix on page 40.]
    Senator Crapo. Well, thank you very much, Dr. Bartuska. And 
I know that we all appreciate the work that you do, and look 
forward to working with you as we address this issue.
    Technology transfer is critical in making the benefits of 
our research available to end users. And technology transfers 
enable us to get the most out of our research investment. Can 
you discuss that with me a little bit? What steps are being 
taken, and how is the Department approaching the opportunity to 
promote and improve technology transfer?
    Ms. Bartuska. Well, we know we have a lot more to do. And I 
will start from that point, because I think this has been a 
significant part of my recent tenure with Forest Service 
Research and Development, is to enhance those opportunities.
    One of the things we have done is establish an internal 
earmark, if you will; set aside a certain amount of money 
within our R&D budget for science applications that our 
stations can use to build partnerships, to take their science, 
and to create new technology tools.
    And we also just have a high degree of expectation that 
when a piece of science is developed, that it will come with it 
a mechanism to get it into the next step, the hands of the user 
community. So our fire work is probably one of the best 
examples. I think it is about 20 percent of our entire program 
is all about fire and fuels work.
    As we do some fundamental research in forested ecosystems, 
we are also putting together the tools, the training modules 
that would bring that information to the user, whether it be a 
public land manager or somebody from the private landowner 
community.
    I mentioned FIREWISE. We have a series of different 
technology tools available to get some of the science into 
modeling, predicting fire behavior, and making it accessible 
through most recent technologies. That is just one example. But 
we have made it a commitment. It is, I think, something that we 
have enhanced opportunities to really be pursuing in the 
future.
    Senator Crapo. Well, thank you very much. We have been 
joined now by Senator Salazar, from Colorado. I explained to 
everybody, Senator, that we had the vote on cloture that pulled 
everybody away. But I would be glad to turn to you right now 
for any opening statement that you would like to make, and then 
the two of us can continue with questioning.

  STATEMENT OF HON. KEN SALAZAR, A U.S. SENATOR FROM COLORADO

    Senator Salazar. Thank you very much, Chairman Crapo. And 
thank you for holding this important hearing on this very 
important issue.
    I also would like to thank Dr. Bartuska for appearing here 
today and for the witnesses that have traveled to this hearing 
from some distances away.
    The Forest Service and its programs are extremely important 
to Colorado, and for most of our states in the West where we 
have huge inventories of Forest Service lands. My State of 
Colorado has 21.5 million acres of forest land. That is nearly 
one-third of all the land in my home state.
    In addition, Fort Collins is the home to the Rocky Mountain 
Research Station, one of the Forest Service research and 
development divisions--six research stations around the 
country. And that research center conducts a research program 
for the eight states of the Interior West region, as well as 
Wyoming, North Dakota, Kansas, and Nebraska.
    The research that is undertaken in Colorado's national 
forests at CSU, and at UCD at Denver, and at the Rocky Mountain 
Research Station has an extraordinary value to Colorado and to 
the Nation. The research helps us understand riparian and 
alpine ecosystems, and provides invaluable social science 
research on natural resource planning and sustainable forestry. 
We are proud of Colorado's cooperative efforts with the U.S. 
Forest Service in this regard.
    While all of this research is extremely important, 
something of particular interest to me is the Colorado research 
that is furthering the progress on the national fire plan. 
Every summer, my state faces the threat of wildfires. Only a 
few short years ago, Colorado faced some of the worst wildfires 
in the whole history of the state.
    I know that the Rocky Mountain Research Station and Fort 
Collins account for one-third of all fire-related Forest 
Service research. And while the Forest Service, at least at the 
moment, is hard pressed to control the weather, there are some 
more controllable factors that Forest Service Research and 
Development has already been doing the research on in Colorado.
    According to the 2004 Forest Service reports, 7 million 
trees, covering over 1.5 million acres, were killed by several 
different types of bark beetles throughout the State of 
Colorado. In addition, in late September of this year, a 
wildfire burned a part of the beetle-killed forest in just 2 
hours in Summit County between Frisco and Breckenridge. Places 
like Grand County and Eagle County and all along the divide are 
surrounded by the time bomb presented by these beetle-killed 
forests. With the next big fire, Colorado could start losing 
entire towns.
    We cannot allow these towns and forests to burn and 
endanger our citizens and natural heritage. The pine beetle is 
very serious business in my state. In my mind, this insect is 
Colorado's forest ``public enemy No. 1.'' The Forest Service 
research on controlling and eradicating the pine beetle gains 
urgency every day, as more of these trees are killed and become 
a fire threat to the communities of Colorado and other places 
around the West.
    I look forward to working with you to ensure that the 
forests and rangeland research program continues to look into 
this important issue, so that our forests and towns are in fact 
protected. And I thank you, and I will have some questions, Mr. 
Chairman.
    Senator Crapo. Thank you very much, Senator Salazar. Dr. 
Bartuska has completed her opening statement, so we will just 
have successive rounds of questions until we are finished.
    Dr. Bartuska, another area that I want to talk about is the 
relationship between the various research partners. And the 
question I have is how the Forest Service is working to make 
the most out of its relationships with universities and 
colleges, in particular, with their tremendous research 
capacity.
    I, personally, think these relationships can really help 
the Forest Service and the universities both accomplish their 
missions and foster our research in forestry issues. Do you 
believe we are getting the maximum out of that partnership, or 
can we improve there?
    Ms. Bartuska. I am not sure if you know my background. I 
actually started in the university, and I have also spent time 
with the Nature Conservancy, as well as the Federal Government. 
So I am really committed to the idea that, if we are going to 
move science forward, we have to do it as a partnership in all 
of those parties.
    I don't think we are doing enough. I think we have 
sustained a certain level of cooperation with the university 
and academic community over the years. I believe right now 
between 12 and 13 percent of our program goes out to 
universities for extramural projects that really enhance our 
own work. But I think we can start taking some more creative 
approaches. And I know there is an interest within the 
university natural resource deans to be doing that same thing, 
and taking a hard look at how we work together.
    One of the areas that we have talked about is: can we 
establish more ideas of centers of excellence, where you bring 
the different types of scientific capacity into one location? 
It might be a virtual center; it might be a bricks-and-mortar 
center; but really being able to have more real-time 
cooperation between our different scientists, as well as those 
who are involved in the extension function.
    I think if we have looked at where we have been most 
successful with those partnerships in the past, it is where we 
have been co-located with other research institutions, mostly 
universities. So places like Boise and Missoula, Montana, where 
we have a presence right on campus, have really created an 
environment where we can have our scientists working with 
university scientists on a more regular basis.
    So I that clearly is an emerging model. There has been a 
lot of discussion about this. A little bit before my role as 
deputy chief, there was a National Academy of Science committee 
on looking at forestry research capacity. It really pointed to 
the need to have a new model of how we work together.
    I guess to me the good news is that, since I have gotten 
into this job, we have had a series of dialogs among all the 
different partners about, ``How do we do this more proactively, 
instead of just sort of in an ad hoc manner?'' And I think the 
conversation has really just begun. But it is heartening, 
actually, that I see the kinds of energy going into it.
    And the panel members that you have here have all been 
talking about the same thing, so it will be good to get their 
ideas later.
    Senator Crapo. Well, thank you very much. And I don't know 
if you have had a chance to read the testimony of the other 
panelists that they have submitted, but as a part of our second 
panel we will hear from Dean Daley-Laursen, who is the policy 
chair of the National Association of University Forest Resource 
Programs. And he believes that a major overhaul of how our 
forest research entities coordinate is needed. I am not sure if 
you are familiar with the ideas he is proposing, but what are 
your thoughts on that?
    Ms. Bartuska. Well, I actually just saw them.
    Senator Crapo. OK.
    Ms. Bartuska. I knew that there were discussions taking 
place. I had the opportunity to meet with the general assembly 
of the natural resource deans when they were in Fort Worth--I 
guess it was about two weeks ago now. So I know that there has 
been some conversation about that.
    I don't disagree with it. I think that the scope and the 
complexity of the issues have gotten so broad, and the 
resources to do that work have continued to be tight, that if 
we don't have a new model of working together I think we will 
not accomplish the science goals that we have.
    I have not studied their proposal well enough to know what 
their concrete specifics are and what our role might be in 
that. But I know that we have pledged that we would establish a 
working group with the universities; Forest Service research; 
hopefully, CSREES; to talk about this very issue and to really 
set out the next year to be much more proactive about how we 
have that conversation.
    Senator Crapo. All right. Thank you very much.
    Senator Salazar, would you like to ask questions?
    Senator Salazar. I would have a couple of questions. The 
first relate to the pine beetle issue, and what I would like to 
ask you, Dr. Bartuska, is what kind of research is currently 
underway with respect to how we might be able to bring this 
infestation under control?
    I understand, for example, that there is a preventive spray 
out there that can in fact address the pine beetle issue. The 
problem is that it is very expensive. And so when you look at 
the pine beetle infestation problem that we have, not only in 
my state, but other places around the West, what is the 
research telling us at this point in time that we ought to be 
doing, and what kind of research is going on at the Forest 
Service?
    Ms. Bartuska. OK. Well, it certainly is one of the highest-
priority areas of research for our western stations; actually, 
as well as our southern research station, through their 
southern pine beetle program. And what I have seen in the 
evolution of that research is going from the traditional 
classic just beetle dynamics and beetle population studies to: 
how does the population interact across the large landscape 
because of environmental factors and vegetation structure?
    So many of the same environmental drivers that have been 
creating the excessive fuel problem in the West are also tied 
to the excessive beetle infestations that we have. The bark 
beetle research that we have in our Rocky Mountain station has 
continued to be a high priority, and it is one of the 
cornerstones of that station's work. They intend to carry on 
looking at the bark beetle population dynamics; again, across 
the entire landscape.
    But--and I think you pointed out--we are also looking for 
what kinds of mechanisms are available out there to control the 
spread. Some of it will have to be silva-cultural treatments. 
There is no way that I think any spray treatment or chemical 
treatment can address a problem as big as the bark beetles are 
throughout the West.
    If we do some prudent silva-culture management, managing 
the stands, creating healthier stands, we may be able to 
protect certain watersheds, especially high-value watersheds. 
And I think we have some techniques to really protect certain 
trees when we have high value.
    I know in the South one of the concerns is you have a few 
really old pine trees that you don't want to lose, because they 
have become icons in the community. So that kind of targeted 
tree by tree we may be able to do with some chemical treatments 
and developing that methodology.
    There also seems to be some potential for establishing some 
trees that have greater resistance to bark beetles. I don't 
know if you are familiar, the mechanism to slow the spread of 
beetles is they throw out the resin--pitch it out--and that 
slows the beetle, and it actually reduces the extent of 
mortality. And there seem to be some trees, some individual 
trees, that have greater potential to do that. If we could, 
through our breeding programs, establish more of those trees, 
we might be able to actually have certain forest stands that 
have a greater ability to resist the bark beetle.
    Senator Salazar. Let me ask you, is there anything in 
addition to what is already going on that we could be doing in 
the Department of Agriculture appropriations bill? The Senate 
included an amendment in there asking for a report back from 
USDA with respect to our efforts on controlling the bark beetle 
problem.
    Do we have enough resources? Are we doing everything we 
possibly can? If you were queen for the day and your assignment 
was to go and take care of the bark beetle problem, what 
additional things would you recommend that we be doing as a 
country to deal with this issue? Or are we going everything 
that we can do?
    Ms. Bartuska. Well, my guess is that I am sure we have gaps 
in the knowledge to be able to do everything we could do. And I 
haven't seen the report to see what kind of an assessment has 
been done about what our needs are and where our gaps are. That 
is one thing that Rocky Mountain station has been working 
through, is establishing their strategy and their priorities 
about what the future research program will look like.
    Not having seen it, I can't really say, I think, what the 
opportunities are. Certainly, the expansion of looking at the 
relationship of bark beetle populations, infestations, forest 
dynamics, and silviculture, and our management across the 
entire landscape, is a very high priority for us, and it is one 
that we will continue to emphasize.
    I guess I would like to just mention one other thing. That 
is, part of the reason why the western threat assessment center 
that was established through the Healthy Forest Restoration 
Act--this is the one in Prineville, Oregon--that is one of the 
roles they will have; is to be able to give us some real 
centralized look at insect problems in the West, and what we 
could be doing to address them. And they have just established, 
so I would also like to wait to see what their plans are coming 
forward with.
    Senator Salazar. I get asked the question almost every day 
when I am out in about 40 counties of Colorado, about what we 
are doing on the pine beetle and what the status of the 
research is. And I would ask if you could get a letter to me--
and perhaps Chairman Crapo would like one, as well, because I 
am sure it is an issue in Idaho--but that just outlines the 
research efforts that you have underway to try to control this 
particular problem. It would be something that would be very 
helpful to me.
    Ms. Bartuska. We would be happy to do that.
    Senator Crapo. Thank you very much. Dr. Bartuska, while we 
are on the issue of timber, since the passage of the Healthy 
Forest Initiative, I have been very concerned that we find 
opportunities to deal with the biomass that is generated from 
the activities that we have incentivized under that initiative. 
And I am curious to know what the Forest Service has done to 
develop new commercial opportunities for the biomass that is 
generated from our timbering activities.
    Ms. Bartuska. That certainly is an area that we have been 
putting a lot of energy into, both looking at what our role is, 
as well as identifying new research. We have worked with the 
Department of Interior and the Department of Energy, through a 
team that we have, to have an implementation strategy for 
improving woody biomass utilization. So we are trying to make 
sure that we work across the departments to really reduce the 
redundancies; also, to play to our strengths.
    One of the things that we have done through our forest 
products lab is develop composite structural materials. We have 
been looking at small, portable energy generation plants that 
you would be able to move to communities, to be able to use the 
biomass onsite and turn it right into energy; possibly plug it 
into the grid, or have it produce the energy for a particular 
building. The Fuels for Schools program is a good example of 
that.
    And we have been looking at different types of housing 
materials that could be used using different types of forest 
biomass. We have also been looking at how do we use the small-
diameter material in new products, in new innovative products, 
working in part with state and private forestry in our 
cooperative forestry programs to establish new businesses that 
are all around, these new markets and new materials.
    So it is both creating the research to identify that new 
type of material; but then also, the technology transfer 
approach through state and private forestry. And then several 
different organizations, including working the Agenda 2020 
partnership with industry and universities, are looking at 
biomass as a fuel, ethanol production, biomass as part of a 
bio-refinery concept.
    So I would say we have a fairly good core set of activities 
that are taking place. Our forest products lab, again, is the 
leader in that. We have got utilization units, though, all 
around the country. And I think we have the platform to really 
making that work.
    I think we probably could do more. We will continue to do 
more. And that is one of our collaborations with the Department 
of Energy, is to get them to recognize that woody biomass is as 
good as agricultural biomass in some of the programs that they 
have. But I feel very confident that, through our national 
strategy, we are making the right progress.
    Senator Salazar. Mr. Chairman, if I may just for a second?
    Senator Crapo. Yes.
    Senator Salazar. I have an Energy Committee hearing that is 
going on.
    Senator Crapo. Oh, definitely. Please, go ahead.
    Senator Salazar. So I am going to be departing in just a 
second. But following up on your line of questions, it seems to 
me that with the major emphasis that we will be putting into 
the whole notion of renewable energy and energy independence in 
this country, that the concept of how we use these biomasses in 
a productive way is very important.
    And I think that it may be useful for us to also get from 
the research service an overview of how we can take these dead 
trees that we are finding all over the West and try to put them 
into some kind of productive use.
    I know that in my State of Colorado, up in Walden and 
Jackson Counties, there is a co-generation facility that is 
using some of the pine beetle trees to provide heating and 
electricity for the school building. So it would be useful for 
me if we could get that kind of a report from you.
    Senator Crapo. I think that would be very helpful, as well. 
And maybe we should clarify a little better than we did, Dr. 
Bartuska, that you are willing to respond to both the pine 
beetle question and this question on the utilization of 
biomass.
    Ms. Bartuska. Yes. We will be happy to do that.
    Senator Crapo. We would very much appreciate that. I think 
that would be very helpful.
    Senator Salazar. Thank you, Mr. Chairman.
    Senator Crapo. Do you have any other questions that you 
want to ask right now, or do you need to get on to your next 
hearing?
    Senator Salazar. You asked the very question I was going to 
ask.
    Senator Crapo. All right. Well, I truly appreciate working 
with you, Senator Salazar. And we have a lot of common issues, 
and I look forward to working with you on them.
    Senator Salazar. Thank you, Mr. Chairman.
    Senator Crapo. Thank you.
    Getting back to the question of our utilization of biomass, 
at the end of your response, Dr. Bartuska, you indicated an 
example of trying to get the Department of Energy to be more 
aware of and focused on the potential of utilization of woody 
biomass.
    One of the things that I have observed is, as we identify 
new uses--and, frankly, new products--that can be commercially 
implemented utilizing this biomass that is generated from our 
Healthy Forest Initiative, one problem we have is developing 
markets for them.
    And I know that the Administration has looked--I think 
there is an executive order that the agencies look at ways in 
their purchasing and the implementation of their missions; that 
they look to the utilization of biomass. From what I have 
observed, however, it is not working very well. The other 
agencies are not doing it as well as I think we expected that 
they would, and had hoped that they would.
    And I would just like to ask your thoughts on the issue of: 
across the Administration, are we getting the necessary 
attention focused on how to get these markets generated by 
utilizing the purchasing power of the Government, as we move 
into trying to utilize these biomass products?
    Ms. Bartuska. I am not totally familiar with all of the 
different opportunities out there from the other departments. I 
do know that because of this working group on woody biomass 
utilization there has been increased discussion going on by the 
three departments I mentioned--Energy, Interior, and 
Agriculture. So I think that we are now starting to get the 
ideas into the hands of these other departments; and certainly, 
a lot of the opportunities there.
    One of the things we recognize is that we have done, in 
some ways, a hit-or-a-miss approach, where we have had maybe 
one scientist or manager approaching someone else and conveying 
the opportunity; and not done it systematically. So as part of 
a response to that, we have just established a biomass 
coordinator position operating out of our national office that 
will try to bring all of the different components together, and 
to be a principal link to other agencies and departments.
    I think we also have hopes that the new energy bill will be 
a platform for us to bring some of those ideas forward at the 
higher levels and at the Secretary-to-Secretary level, to 
increase that visibility.
    Clearly, it is going to take multiple approaches. And I 
think at every different level of Government we are going to be 
having to have this conversation. We are really in some ways 
just getting started. I don't think we are there yet. But it 
seems more and more we have got the pieces in place to deliver.
    Senator Crapo. Well, thank you. I appreciate that. And I 
would encourage you to utilize your position in your department 
to keep the pressure on.
    I will just give you one example that I am aware of. We had 
a product developed in Idaho. I don't know the exact name for 
this, but it would be utilizing some of the small timber for 
stream breaks; which was very helpful both in terms of 
firefighting and responding to erosion problems, and also 
environmental improvement of habitat in the streams.
    But what seemed to me, at least, was that those in other 
agencies who could use this were already very comfortable with 
previous products--which didn't work as well, in my opinion. 
But those who issued the purchase orders had the relationships 
with the providers and so forth in other contexts, and just 
were not really that interested in focusing on trying to help 
develop the markets for this new biomass.
    And somehow, we have got to get the message, as you just 
said, all the way through to different levels of the 
Administration; that it really is a policy objective that we 
are seeking to implement here. So I just encourage you to help 
do that.
    We have been joined by two more here, and I would like to 
give both Senator Lincoln and Senator Lugar the opportunity to 
make an opening statement and ask any questions, if they would 
like to. So we will turn first to you, Senator Lincoln.

STATEMENT OF HON. BLANCHE LINCOLN, A U.S. SENATOR FROM ARKANSAS

    Senator Lincoln. Thank you, Mr. Chairman. And it is 
certainly a pleasure to share this Subcommittee with you, and 
continue our work to ensure the health of our Nation's forests.
    I have said it on many occasions: I have been so proud of 
the partnership that Senator Crapo and I have been able to 
forge; particularly during the Healthy Forest Restoration Act, 
and in some of the other issues that we have been working on. 
It is a very positive step that I think that we have taken 
together that has brought about some results. I have certainly 
seen them in my state, and I know he has in Idaho, as well.
    And certainly, like the Chairman today, I see today's topic 
of today's hearing a very significant component to the health 
of our forests. I am once again pleased to join the Chairman in 
looking at how our forest research dollars can best contribute 
to the manageability and the sustainability of our forests.
    We in Arkansas had a very comprehensive meeting in the last 
2 weeks with a lot of different entities through our forest 
system, to really talk about not only how we could be doing a 
better job, but what other opportunities are out there, and how 
we need desperately to really use the opportunities of research 
and the tools of research to be able to maximize again the 
manageability of our forests, the sustainability, and the 
health and growth of those real treasures for us.
    So we are fortunate today to have Miss--It is ``Bartuska''?
    Ms. Bartuska. Bartuska.
    Senator Lincoln. Bartuska, with USDA's Forest Service. And 
we want to thank you. Your Department certainly provides our 
Nation with invaluable technical research, and that is 
important to us as we are out in the field. We thank you.
    And we are also pleased to have with us today another 
partner in this effort, from Arkansas, one of our very own, Mr. 
Scott Simon, who joins us from the Arkansas Chapter of the 
Nature Conservancy. We have had in our office and with the 
Forest Service in Arkansas a wonderful working relationship 
with the Nature Conservancy. They have been invaluable to me 
and to my office, and I think to the Forest Service as well.
    And Mr. Simon plays an integral role in making what we do 
here in Washington work out there in the real world. And we are 
very, very grateful. He is a tremendous resource for our state 
and, as I said, to me, personally. So, pleased that he has 
joined us today, and look forward to his testimony.
    Welcome all of our panelists that will be here today. Mr. 
Chairman, I will submit my entire written statement for the 
record. But I do want to reiterate my support for the Chairman 
in taking on what I think is a critically important issue. 
Research is absolutely necessary, as we see all kinds of 
different conditions that are changing around us--whether it is 
weather patterns; certainly, multiple other conditions and 
variables that have an effect on our forests.
    It is important for us to utilize the kinds of research 
that we can produce, if we are serious about it, in making sure 
that we do look toward the sustainability of our forests.
    Just on one note, I had my children out in the forest last 
weekend--took me about 2 days to scrape all the mud and rocks 
and leaves and dirt off of them, after they had spent an entire 
weekend out in the forest and along the riverbed. But it also 
was unbelievable to see the curiosity, the real respect that it 
generated in two 9-year-olds to be able to have a forest to 
play in.
    And I think that we all share that goal and that really 
deep devotion to making sure that what we do is preserved, 
those forests, for future generations. And with research, we 
know we can do it correctly, and we can do it for many, many 
years in the future.
    So thank you so much, Dr. Bartuska. We appreciate your 
being here and what you do. And I certainly will look forward 
to working with the Chairman on such an important issue. And 
welcome to Scott Simon. We are glad he is here. Thank you, Mr. 
Chairman.
    Senator Crapo. Well, thank you very much, Senator Lincoln. 
I, too, want to say once more how really important our working 
relationship is to me. I think we have said this before: we got 
elected to Congress at the same time, and we have worked 
closely together ever since, and done a lot of good things.
    Senator Lincoln. Yes.
    Senator Crapo. And I appreciate that working relationship 
that we have.
    Senator Lugar.

  STATEMENT OF HON. RICHARD LUGAR, A U.S. SENATOR FROM INDIANA

    Senator Lugar. Mr. Chairman, it is a privilege to be here 
today with you and Senator Lincoln, and to listen to these 
distinguished panelists and Dr. Bartuska leading off.
    Let me just say that I have two major interests in today's 
hearing. First of all, in behalf of the 54,000 people in 
Indiana who are employed in the hardwoods industry, we are 
intensely interested in the competitive aspects of those 
industries and those jobs, and have become involved in a log 
scanning project with Purdue.
    And one of the questions that I will raise, but that you 
might want to cover initially, is whether log scanning research 
is a part of the USDA portfolio now. By log scanning, I mean 
the ability to utilize a hardwood log to obtain more board feet 
from it than is currently the situation.
    It is a competitive advantage in which our technical 
abilities need to be employed. It is not the only one, but it 
is indicative at least of the work that our staff in Indiana is 
trying to do, along with the Purdue Hardwood Regeneration 
Center and the research people there, in practical ways of 
working with the industry.
    In addition, as you know, the Purdue Center is working out 
what might be called the state-of-the-art: how do you arrive at 
the best walnut, oak, maple, or what-have-you? On my own farm, 
we have some of the Purdue research proceeding with the 
grafting of trees and an attempt really, over the course of 
time, to find the best breed; in part, because our country will 
be more competitive if we have these trees and we know more 
about them.
    As I revealed in the last comment, I am interested in your 
testimony as a tree farmer, as somebody who consumes this 
information. We have about 200 acres in hardwoods, along with 
200 acres of corn and 200 acres of beans: a good portfolio, and 
a farm that is situated inside the city limits of Indianapolis. 
So as a result, I must say, the beauty of the beans and the 
corn is evident, but the neighborhood likes the trees best.
    And they are beautiful. And I have been planting some of 
them in plantations for the last 25 years, learning from 
foresters in our state and around the country what we are doing 
right and what we are doing wrong; having had foresters from 
around the world come through and, sort of with an ``author 
meets the critics'' session, listen to what they think about 
American forestry practices; and then, the opportunity to visit 
with some of these people in their home countries, likewise.
    What is evident is that we have great opportunities in the 
United States, because we do have great forest resources. And 
some of these resources have been chopped down in China, for 
example, or in other countries. And therefore, issues arise as 
to whether we should export logs to China or other places that 
don't have them: an interesting reverse protectionism, of 
sorts.
    And all of these issues may be beyond the testimony today; 
but I raise them because they really are vitally important, not 
only to farmers and to producers, but to the industries that 
are reliant upon these folks. And my guess is that the up-side 
potential for these industries is really unlimited, if we do 
our homework now, if the research efforts are available at USDA 
or with the resident colleges that may be helpful; quite apart 
from the extraordinary input from ingenious American industry 
involved in this.
    So I appreciate the hearing. And I thank you, Mr. Chairman 
and Senator Lincoln, for making this possible.
    Senator Crapo. Well, thank you very much, Senator Lugar. I 
didn't realize until today that your farm was inside the city 
limits. That has got to be an interesting experience.
    Senator Lugar. It poses some unusual problems.
    [Laughter.]
    Senator Crapo. Well, Dr. Bartuska has already given her 
opening statement, and I have asked a number of questions. And 
so, Senator Lincoln, if you have questions, let's go to you 
right now.
    Senator Lincoln. I think it is a broad question and so, for 
whatever I may have missed in your comments earlier, I think we 
start next year really looking in great earnest at our Nation's 
foreign policy, as we prepare for the 2007 farm bill. And I 
guess whatever question I may have is, what are the 
opportunities that you see in that upcoming legislation to 
further the efforts of forest research?
    Are there some specifics there that you hope to see us 
focusing on in the farm bill that would really further 
research? I just know from the meetings I have had at home, 
there has been an enormous desire, particularly in our home 
state, to further the research that we have in the forestry 
industry.
    Ms. Bartuska. Well, I can partly, I think, answer that, 
since in the Forest Service we have just begun our discussions 
of, ``What role would we be playing in the farm bill, what 
information, what ideas do we want to send forward?'' 
Historically, there have been forestry titles in past farm 
bills, and in fact one of them I know was focused on forestry 
research. So there is certainly an opportunity to be looking at 
that.
    We were talking quite a bit with the Department, of course, 
about what role a lot of the conservation titles that currently 
exist in this farm bill might have, and expanding it to address 
forestry-related issues in a much more comprehensive way.
    So to answer your question, I think those pieces are out 
there. We have not, I think, spent enough time to say, ``This 
is the platform that the Forest Service and the Department want 
to bring forward.'' But I do think it is a rich opportunity 
that we are talking about it now and taking advantage of what 
we saw in the past farm bill.
    Senator Lincoln. Thank you. I know it is somewhat 
premature, and I am certainly not asking for specifics or 
details. But I do think it is an opportunity--certainly for me, 
and I think the Chairman as well--to let you know that I am 
definitely thinking of those things. And I hope that you will 
work with us over the coming months, as we kind of prepare 
ourselves for that; because there are some, as you said, rich 
opportunities to engage in those discussions. Thank you.
    Senator Crapo. Thank you. Senator Lugar?
    Senator Lugar. Secretary Bartuska, you have mentioned in 
your testimony this science you can use--sort of a user-
friendly department. And this may just show my lack of grasp of 
all that you do, but what kind of publications do you put out, 
that reflect the extraordinary gamut of research that you do, 
that are available to farmers at that level?
    I would gather perhaps people in academic institutions may 
see the product of your efforts, or perhaps some of your 
efforts are giving grants to the institutions so that their 
work can come forward.
    But I ask this, once again getting back to my tree farmer 
role. The Walnut Council of Indiana puts out a publication; we 
have some tree farmer publications that are state or national, 
and they reflect bits and pieces of the research that is going 
on in America. But I have often thought, as I come to these 
hearings and I hear extraordinary issues that are being brought 
to the fore, ``Where is this research?'' Do I need to send 
staff coming through USDA or the Library of Congress?
    In other words, can you give us some idea of the 
availability of the findings and the materials in a user-
friendly way?
    Ms. Bartuska. I can give you sort of a broad-spectrum 
approach. First, I would have to say that, just as any research 
organization, where the performance of a research organization 
is based on peer-reviewed publications, there clearly is a 
responsibility of our science to deliver that. But over the 
years, we have increasingly been focusing on how do you 
translate that science into a form that others can read and 
use. And it is all across the board.
    In some cases, it is through our National Agroforestry 
Center, for example. It is tips for the landowners. It is, how 
do you put in a stand of trees or a wood lot that actually can 
maximize the return on that piece of ground.
    We do have a ``How do you?'' and ``What is the value of 
riparian forests to buffer?''--a very simple, threefold kind of 
document that in very clear English shows with pictures and 
diagrams the value of that riparian tree buffer to reduce land 
runoff into streams, help contribute to water quality.
    So we are trying to do more of those. We have actually a 
great publication--and you mentioned, Senator Lincoln, about 
your children--a thing called ``The Natural Inquirer,'' which 
is translating into terms that middle-school and high-school 
students can use complex scientific issues. And in fact, our 
biggest seller was all about planning.
    Now, can you imagine kids wanting to learn about planning? 
I mean, I have a hard time wanting to learn about planning. But 
that was an incredible tool; and bringing educators to help 
write that and get the right visuals and the diagrams. And it 
really made it a captive publication and very popular. So we 
are trying to create more and more of those.
    I wanted to mention again the National Agroforestry Center, 
which was recently moved to the southern research station. It 
is operating out of Huntsville, Alabama. And this is one of 
their principal roles, is to communicate and work and network 
with the different farm and forest organizations through the 
region. And actually, they have a national responsibility to 
broaden out that connection, so that we are producing tools 
that those particular landowners can use.
    So I am increasingly proud of what our scientists are 
doing. And we are finding that some judicious hiring of people 
who are trained as technology transfer specialists, as opposed 
to scientists, is really paying off in big dividends for us.
    Senator Lugar. Well, this is good news. Just as a practical 
matter, do you publish a bibliography of publications? If I ask 
a staff member to come over there, would you have a list of 
these things? I am trying to reduce this down to the 
grassroots, where I can carry around a piece of paper, or a 
magazine, or encourage others to utilize these publications. 
And I would not be raising the question if I felt that I was 
over-supplied now.
    Ms. Bartuska. Yes, I----
    Senator Lugar. It is the other way around. I need, really, 
some help, and I am trying to figure out how I get it.
    Ms. Bartuska. We probably don't have in one place all the 
publications that have ever been produced. I think we actually 
are producing over a thousand a year.
    Senator Lugar. Well, I wouldn't need all of those.
    [Laughter.]
    Ms. Bartuska. No, you wouldn't. So you probably want by 
subject.
    Senator Lugar. Yes.
    Ms. Bartuska. And you actually ask a good question. I do 
not think we have in one place a list of all of the most 
commonly used publications around a particular topic. But we 
might have more than I realize; and so something like that. And 
I can take it back to our office, and see what they have.
    Senator Lugar. If you would, and just in the spirit of the 
question, see what you have, so that--you know, we might order 
some. We might figure out how to get our hands on them, and 
make them available to people.
    Ms. Bartuska. Well, that would be great. And I will take 
that back.
    Senator Lugar. Great. Thank you.
    Ms. Bartuska. And I have staff back here who are making 
notes quickly.
    Senator Lugar. Very good.
    Senator Crapo. Senator Lincoln?
    Senator Lincoln. In all this good conversation, I thought 
of one more question. In the meeting that we had in Arkansas on 
a university campus, talking with forestry industry folks, 
Forest Service folks, and others, realizing the really integral 
relationship, or the integral part that those relationships 
play, maybe you might comment on the partnerships. I know that 
partnerships between universities, the Forest Service, our non-
profit groups, as well as interest groups--they have all played 
a very integral role in getting to the ultimate, in terms of 
both research and making sure that we have as much information 
as possible.
    You might comment on your approach to that, as well as your 
thoughts on how important it is to have good strong 
partnerships among a diversity of groups.
    Ms. Bartuska. Well, and as I said earlier in my testimony, 
it is one of the most important things that I think we have to 
do, is establish those partnerships and really enhance them. 
For one, the questions that we have out there, the science 
issues, are so complex that no one organization can do it all.
    I came into this job in January of 2004, and I think I have 
now had five or six meetings, I think, with the university 
deans--Steve will probably correct me if I am off a little 
bit--on exactly that issue. It is not only what are the major 
science priorities we should be working together on, but how do 
we enhance that partnership?
    And so I think both myself and my office, as well as our 
station directors, are very committed to making that kind of 
thing happen. I think it is just critically important for all 
of us because the costs of doing science has gotten so high 
that, if you don't work together, you are not going to be able 
to solve and answer all of the problems that we have out there. 
So it just is good business, too, to do that.
    The actual implementation I think is really variable. It 
probably varies as much as the geographic distribution of our 
research sites. In some cases, it is very robust and active, 
where our dollars are leveraging others' dollars five- or ten-
to-one; in other places, it is maybe just one partnership, and 
they could probably be encouraged. But that is something that 
the station directors are quite aware of and really trying to 
encourage.
    Senator Crapo. All right. Well, Dr. Bartuska, we really do 
appreciate the time and the effort that you have given to not 
only appear here today, but the work that you do on behalf of 
the research that is done.
    Ms. Bartuska. Thank you.
    Senator Crapo. And with that, we will excuse you. And we 
will move on to our next panel.
    While our next panel is coming up, I will introduce them. 
Our next panel consists of Mr. Steven Daley-Laursen, who is the 
Dean of the College of Natural Resources of the University of 
Idaho; Mr. David Canavera, Manager of Research and Development, 
Ecosystems Project, at MeadWestvaco Corporation; Mr. Bob 
Schowalter, who is with the South Carolina Forestry Commission; 
Mr. Robert Daniels, Extension Professor at the Mississippi 
State University; and Mr. Scott Simon, Director of The Nature 
Conservancy, the Arkansas Chapter, Little Rock, Arkansas.
    Gentlemen, we appreciate each of you being with us. My 
staff tells me we have reminded you that we would like to ask 
you to try to keep your comments to 5 minutes, so we have an 
opportunity to have more time for some give-and-take during our 
questioning period. So I would encourage each of you to pay 
attention to that clock that is front of you, so we can stay on 
time here.
    Senator Lincoln. But you haven't installed the buzzers, 
like Chairman Grassley.
    Senator Crapo. On the Finance Committee they have a foghorn 
that goes off.
    [Laughter.]
    Senator Crapo. Oh, we have got that here? All right!
    [Laughter.]
    Senator Crapo. So anyway, gentlemen, we will proceed in the 
order that I introduced you. Dean Daley-Laursen, please start. 
Thank you.

 STATEMENT OF STEVEN B. DALEY-LAURSEN, PH.D., DEAN, COLLEGE OF 
             NATURAL RESOURCES, UNIVERSITY OF IDAHO

    Mr. Daley-Laursen. Thank you for the opportunity to testify 
with the Committee today. My name is Steve Daley-Laursen. I am 
the Dean in the College of Natural Resources at the University 
of Idaho, and also the Policy Chair for the National 
Association of University Forest Resources Programs. We are 69 
universities across the country where scientists, educators, 
and extension specialists advance the health, productivity, 
sustainability, and competitive status of the Nation's forests 
through research and education at the graduate and 
undergraduate levels, outreach, and technology transfer.
    I want to express great appreciation, Senator Crapo, for 
your style of bringing partners together to discuss issues and 
seek solutions. You are well known in the State of Idaho for 
being a leader in that regard. It is a pleasure to be here in 
the spirit of collaboration.
    Today I am going to try to accomplish two things in the 
short time I have. One of them is share with you the elements 
of the new vision of our university forest resource program 
association, (a vision for America's forests); and then offer 
some thoughts that we are kicking around with our partners on 
the enhancement and redesign of our federally funded forestry 
research and technology transfer system. We foresee a working 
network of partnerships to rebuild research capacity.
    So first, to the vision. Our organization has developed 
this vision with three elements:
    First, forests will be managed and conserved to meet 
changing human needs based on local knowledge plus ever-
improving science and technology;
    Second our forests will be vibrant, resilient, dynamic 
ecosystems that sustain a full array of forest benefits derived 
from conservation and management strategies across everything 
from preservation zones to intensively managed zones;
    And finally, forests will be a constant source for learning 
about relationships between people and natural resources, 
benefiting people and all other forms of life.
    I would like to spend the rest of my time sharing with you 
some of the thoughts, that we have been ginning up within our 
organization about the redesign reform, improvement and 
enhancement of our natural research technology transfer system 
around forestry. And again, some of these thoughts are real-
time; some have been ginning up for the last year and a half or 
so.
    So why do we need redesign and enhancement? I think it has 
been touched on. I would to stress that there are many changes 
in our working environment. I don't need to list them. They are 
in the written testimony. But we feel the system of research 
and technology transfer has not kept up with those realities of 
our changing world.
    Increasing demand for research and outreach with reductions 
in public funding creates a tense situation.
    The once strong cooperative research relationship between 
the Forest Service and universities has become more competitive 
than collaborative. It's no one's fault. It's the working 
conditions--and it is not really efficient or strategic. Fiscal 
conditions exacerbate this situation. And with limited funds 
and a lack of cooperative strategies, we will continue to 
diminish the science capability of both the Forest Service and 
the university system, ensuring a failure at addressing the 
Nation's greatest issues in forests.
    Significant challenges, but surely also opportunities, as 
we as leaders realize, We can redesign and enhance the system 
when we are all paying attention. And we ought to do reform 
with the best interests of the forests and a variety of end 
users at heart.
    So it is really a call for coordinated leadership. We will 
only make the system work well again if we work together across 
the partners that the Senators have invited today.
    I would like to just tick off for you some of the steps we 
are taking toward reformation of the system. They are 
aggressive. I think they are leadership steps, and they are in 
concert with the partners at the table here. We can come back 
for more detail on any of them that you would like to ask 
questions on.
    First, our organization is sponsoring the national forestry 
summit in early January, titled ``Forest Research for the 21st 
Century: Defining Strategic Directions and Rebuilding Capacity 
for the Research and Technology Transfer Enterprise.'' I have 
included in my written testimony a list of objectives for the 
summit, and I would encourage you to take a look at those.
    Action two: a formal strategic planning process for the 
redesign of the McIntire-Stennis program, catalyzed partly by 
our own self-assesment over the last few years, but also by 
Congress' leadership in raising important questions about base 
and competitive funding over the past year. Funded by a grant 
from USDA-CSREES, we are conducting a multi-stakeholder process 
to determine best approaches to research priorities, models for 
allocating base and competitive dollars, and suggestions for 
methods of assessment that will satisfy all parties involved.
    Early stages in those discussions have led to the following 
categories: innovations suggested in base funding and 
competitive funding combinations; adopting of collaborative 
investment models, where the Forest Service would invest more 
in the potential of the universities; increasing nimble 
qualities in the Forest Service system; assessment systems, and 
so on.
    I also want to stress the importance of regional programs. 
They are burgeoning; they are growing; and if we do our 
partnerships right, we will be able to support some very 
important regional programs.
    Third and fourth are the RREA strategic planning and 
assessment, I am sure Professor Daniels will mention; and the 
Outlook Project being led by Deputy Chief Bartuska, getting at 
decisionmakers' needs in forestry.
    So our member institutions stand ready to invest our 
intellectual energy in this process of working together. We 
appreciate the opportunity to be here, and look forward to 
working with you in the development of legislation over the 
next couple of years. Thank you.
    [The prepared statement of Mr. Daley-Laursen can be found 
in the appendix on page 45.]
    Senator Crapo. Thank you very much.
    Mr. Canavera.

    STATEMENT OF DAVID CANAVERA, MANAGER, FOREST ECOSYSTEMS 
 PROJECT, FOREST RESEARCH, MEADWESTVACO CORPORATION, ON BEHALF 
           OF THE AMERICAN FOREST & PAPER ASSOCIATION

    Mr. Canavera. Thank you, and good morning, Mr. Chairman. My 
name is David Canavera. I am the Manager of the Forest 
Ecosystems Project for MeadWestvaco Corporation in Summerville, 
South Carolina.
    My testimony today is on behalf of the American Forest and 
Paper Association, where I serve as chairman of the AF&PA's 
forest science and technology committee. This particular 
committee has a long history of reviewing publicly supported 
forest research and working with the forest industry to 
identify research priorities.
    As you know, and as Senator Lugar alluded to, we are very 
fortunate to have very vast forest resources in our country. 
But we also stand at a crossroads today, because the ability to 
maintain healthy and sustainable forests is closely linked to 
the ability of the United States forestry sector to compete 
globally.
    New industrial capacity growth in our industry is now more 
common in other countries where forestry, labor, and 
environmental practices are often not as responsible as those 
in the United States, and inherent land productivity is higher 
than in the United States. As a result, jobs are being 
exported; domestic demand for industry's products is 
increasingly being met by producers in other nations who do not 
share our high standards and commitment to sustainability.
    For example, today it takes four times as much land to 
support a pulp mill in the southern U.S. than it does in South 
America. This represents a competitiveness gap in forest 
productivity that should and must be closed.
    The Forest Service and other USDA agencies play a central 
role in advancing forestry research in the United States, and 
its history of doing so is fairly impressive. Enhancements in 
tree growing, milling, and product technologies, and in 
fostering wildlife habitat, water quality, other ecological 
forest outputs, have been possible in large part because of 
research conducted by the Forest Service, universities, and the 
private sector.
    However, the past is not necessarily prelude to the future. 
We have substantial challenges ahead of us. The dollars for 
funding research are fewer; the competitive challenges greater. 
We have to develop national research strategies that will lead 
to bold and substantive new innovations. The entire forestry 
research community--and especially the Forest Service--should 
be positioned to make giant leaps in research to meet these 
economic and environmental challenges.
    If we were to compare the state of forestry research with 
that of other disciplines, like medicine, engineering, and 
agriculture, forestry research lags far behind. Consider for 
example, research in molecular biology is uncovering innovative 
ways to treat human diseases by targeting and destroying 
harmful cells. But the field of molecular biology with respect 
to tree species is comparatively underfunded and 
underdeveloped.
    In my prepared document, eight priorities to research as 
identified by the forest science and technology committee are 
listed. These areas are aimed at maintaining the sustainability 
of our Nation's forests; using the wood produced in them as a 
renewable source of material for energy and for carbon 
sequestration; and in making our industry more globally 
competitive.
    And within the context of these priorities, there are 
several activities and focus areas where USDA should place its 
emphasis. These include Agenda 2020, which is a technology-
driven research partnership involving the Department of Energy, 
the Forest Service, and the private sector. Through Agenda 
2020, research is targeted to those technologies that are most 
promising for advancing forest productivity, increasing wood 
utilization, producing energy and chemicals, and improving 
ecological functions of forests.
    Next are integrated forest biorefineries. The forest 
biorefinery concept will enable production of energy and 
chemicals, along with traditional uses of ligno-cellulosic 
materials.
    Third is the Forest Inventory and Analysis. The importance 
of the FIA program cannot be overstated. Without the basic 
metrics to track and monitor changes to our forests, we will 
not understand how our forests work and function.
    Fourth is the topic area of biotechnology and tree 
improvement, especially the Loblolly Pine Genome Initiative. 
The application of biotechnology to forestry, especially 
sequencing the genome of an important conifer tree species such 
as loblolly pine, promises to open new frontiers in forestry 
research; enabling, among other things, more efficient breeding 
programs and ecological restoration.
    Finally is the area of forest products utilization, where 
more efficient and innovative forest product utilization 
technologies are needed.
    Now, none of the above initiatives or programs is possible 
without collaborative partnership among stakeholders. For 
example, the industry participates in several research 
cooperatives or works directly with universities to support a 
number of organizations that support research, such as the 
Southern Forest Research Partnership. And of course, we have a 
good working relationship with the Forest Service Research and 
Development Program at the national level and the regional 
levels.
    Within the context of CSREES, in particular, I would like 
to point out that the National Research Initiative--NRI--
competitive grants program is one in which I recommend that the 
establishment of a separate NRI panel be done for forestry. 
This would particularly relate to forestry, forest ecosystems, 
and including forest products.
    So in conclusion, I would like to emphasize that targeted 
research is needed to support sustainable forestry and healthy 
forests. Sustainable forests are linked to a healthy and 
competitive forest products sector. Without a viable forest 
products industry, there is no economic incentive for investing 
in sustainable forests.
    Our challenges are substantial. Thank you. I look forward 
to working with you.
    [The prepared statement of Mr. Canavera can be found in the 
appendix on page 54.]
    Senator Crapo. Thank you very much.
    Mr. Schowalter.

STATEMENT OF BOB SCHOWALTER, STATE FORESTER OF SOUTH CAROLINA, 
 SOUTH CAROLINA FORESTRY COMMISSION, ON BEHALF OF THE NATIONAL 
                 ASSOCIATION OF STATE FORESTERS

    Mr. Schowalter. Good morning, Mr. Chairman and members of 
the Subcommittee. On behalf of the National Association of 
State Foresters, I am pleased to have the opportunity to 
testify before you today on the Forest and Rangeland Research 
Program of the USDA Forest Service.
    NASF is a non-profit organization that represents the 
directors of the state forestry agencies from the states, U.S. 
territories, and the District of Columbia. State foresters 
restore, manage, and protect state and private forests across 
the U.S., which together encompass two-thirds of our Nation's 
forests.
    Forest Service research is integral to the advancement of 
science of professional forestry. With the reality of flat or 
even decreasing Federal funding available to forestry research, 
it is important that the Forest Service focus on the highest 
research priorities and coordinate activities with states, 
universities, and the private sector.
    First, I wish to highlight an example of coordination that 
has led to improved success in a research project. The Forest 
Inventory and Analysis Program is a 70-year-old program that 
has successfully incorporated new partners. State agencies now 
help collect and analyze data, as well as publicize results. 
The program provides critical information to decisionmakers, 
including data on forest health and sustainability. We applaud 
the Forest Service's efforts to seek user input in the program, 
and the development of a new FIA strategic plan.
    Even with this success, state foresters wish to see a more 
transparent decisionmaking process in selecting and funding 
research. A transparent process would reduce concerns about 
overlapping and conflicting priorities among universities and 
other research partners.
    Forest Service research has established a successful track 
record of addressing issues focused on the national forest 
system. The focus of the agency has now shifted away from 
timber production on those lands. Forest Service research needs 
to shift its research priorities to growing issues, such as 
timber production on private lands, ecosystem services, non-
timber forest products, and conservation of private lands.
    The case for an increased focus on state and private 
forestry issues is compelling. Two-thirds of the Nation's 
drinking water comes from private lands owned by more than 10 
million landowners. These 500 million acres of private forests 
comprise two-thirds of all forest land in the country.
    The southeastern United States is the world's greatest 
producer of timber, and has a significant impact on the 
regional, national, and international economy. Timber, at $22.5 
billion annually, is the Nation's second-largest crop, behind 
only corn. From ozone reduction and cooling in urban areas, to 
clean water and recreational opportunities in suburban and 
rural areas, our Nation's forests, public and private, provide 
a variety of benefits to society.
    These benefits, collectively known as ``ecosystem 
services,'' are outputs that benefit society as a whole. 
Opportunities exist to develop markets for trading credits for 
these ecosystem services, and to help private landowners enter 
that marketplace. NASF believes Forest Service research must 
take the lead in developing values for these services.
    Extensive damage done to forests by hurricanes, wildfires, 
and other natural disasters has put disaster recovery and 
restoration needs in the national spotlight. Convincing private 
landowners to restore their forests, and not to subdivide and 
sell their lands for development, is a challenge for the 
forestry community. Research into landowner attitudes, 
motivations, and trends in response to catastrophic natural 
disturbances is essential. This research should be used to 
guide outreach, education, and incentive work with private 
landowners.
    Successful forest management by private landowners requires 
viable markets for timber. Researchers at the Forest Products 
Lab in Madison, Wisconsin, are finding new uses for small-
diameter timber that is removed in hazardous fuel treatments. 
This technology is also applicable to material removed from 
hurricane-damaged forests and those damaged by insects and 
disease. Without markets, many private landowners are simply 
not able to complete restoration work.
    Our Nation's private forest lands are poised to make a 
contribution to the Nation's energy needs. Further research is 
needed to better understand the impact and opportunity of 
biomass energy from private forests. NASF supports the 
expansion of the forest biomass research program at the Forest 
Products Lab and in other Forest Service research programs.
    In summary, the Forest Service Forest Rangeland and 
Research Program has a history of success in supporting on-the-
ground forestry through technical research aimed at pressing 
forestry issues. The future success of the program depends on 
its ability to adapt to new societal and forestry issues. We 
encourage the Forest Service to work with the on-the-ground 
users of forestry research when setting priorities and 
designing projects.
    We look forward to opportunities to provide additional user 
input into the agency's research and planning process. With 
sufficient funding and coordination with universities, state 
agencies, and the private sector, this program will continue to 
lead forestry research into the 21st century.
    I thank you for the opportunity to be here today. I will be 
glad to answer any questions you may have.
    [The prepared statement of Mr. Schowalter can be found on 
the appendix on page 60.]
    Senator Crapo. Thank you very much.
    Dr. Daniels.

 STATEMENT OF ROBERT A. DANIELS, EXTENSION PROFESSOR, FORESTRY 
            DEPARTMENT, MISSISSIPPI STATE UNIVERSITY

    Mr. Daniels. Good morning, Senators. I am Bob Daniels, from 
Mississippi State University, Forestry Department. I am an 
Extension specialist there. I want to thank the Society of 
American Foresters (SAF) for this opportunity for me to be able 
to testify this morning.
    I feel qualified, I guess you would say, to be on this 
panel in one way, because I started my career in Forest Service 
research; but I have spent a lot of my last 20 years or so, you 
might say, in the ``user'' community, in the Extension service, 
Extension natural resources. Also, I am a leader within SAF, 
serving on the national council. So I have had a great 
opportunity to get around and speak with a lot of my 
compatriots, not only in Extension at the universities, but 
lots of foresters on the ground.
    I have given you a lot of similar statements that have been 
mentioned here by some of the previous witnesses in my written 
comments, so I won't go over some of those. But I guess more 
than ever, our forests today are under increasing pressure. We 
have greater needs than we ever have had from our forests in 
this country.
    And with regard to forest research within the Forest 
Service, it is extremely important, obviously. Well, all of us 
have been saying that. But today I guess I would say that 
greater collaboration and emphasis on high-quality 
collaboration is needed more than ever. And partnerships that 
some of us have been talking about--Dr. Bartuska earlier--they 
are important for us to create more efficient and effective 
means for translating research.
    And that is really where I think I bring my greatest 
emphasis to this panel, is talking about the transfer of 
research information. And that has been a question from some of 
the Senators already. Many folks in the user community rely on 
us in the Extension community, Extension foresters, to find and 
to translate the information. Senator Lugar was talking about, 
trying to find some publications earlier.
    Extension, however, or the land-grand university system, is 
not directly connected to the Forest Service; not nearly as 
well as it needs to be, in my opinion. We can talk about that 
in questions, perhaps.
    But I have given you an example of a piece of research that 
was translated recently into some really good user information, 
I think, that can be used by some of the Katrina victims down 
in Mississippi, having to do with timber price dynamics after a 
natural disaster or catastrophe like this. And we can talk 
about it perhaps later. Time won't permit me now to go through 
some of that.
    But interpretation of research and application of that 
research is really what Extension is all about, and what I 
think is really needed in the system that we have been talking 
about. The technology transfer system that has been mentioned 
already.
    And I wanted to mention--and I am sorry Senator Lincoln 
left--that translation (of research findings) occurs not just 
to tree farmers and other users like landowners, but also down 
to youth audiences, as well. And that is something we could 
talk about. I know she would be interested in that.
    But there has been a lack of attention, I would say, given 
to the importance of Extension over the years, and funding has 
been limited, and linkages have been weak. I think that is a 
very important thing that we can do, is to try to emphasize 
some strength in some of those linkages. And SAF believes that 
a strong relationship and formal linkage between the Extension 
natural resources groups and the Forest Service would be very 
beneficial and is needed in the future. Many times, researchers 
don't have the incentives to ensure that their research gets 
passed along and applied, so that is something we can look into 
and strengthen and shore up.
    In summary, I guess I would make a few suggestions. 
Partnerships between Forest Service research and universities 
and other groups should be more greatly utilized. Consistent 
funding for research, of course, is urgently needed. When 
speaking and considering about forestry research, the entire 
knowledge transfer mechanism, including outreach and Extension, 
should be discussed in that whole equation.
    Currently, Forest Service research and other research 
connections with the user community can be improved by a couple 
of quick things I can tick off. One is, create this formal link 
between Extension and Forest Service research, and particularly 
state and private, also. There are some linkages there already. 
Create incentives for researchers to think about outreach and 
Extension when projects are first being planned. Include that 
in your planning from the very beginning. And provide funding 
for outreach of technical information in project proposals when 
they are written, also.
    So these things can, you might say, include some of the 
technology transfer infrastructure that we already have, when 
projects are being planned. I thank you for your attention, and 
look forward to question time.
    [The prepared statement of Mr. Daniels can be found in the 
appendix on page 64.]
    Senator Crapo. Thank you very much.
    Mr. Simon.

   STATEMENT OF SCOTT SIMON, DIRECTOR, ARKANSAS CHAPTER, THE 
                       NATURE CONSERVANCY

    Mr. Simon. Good morning, Mr. Chairman. Good morning, 
Senator Lugar. My name is Scott Simon. I am the Director of the 
Conservancy's chapter in Arkansas. And we appreciate you 
including us in this discussion.
    The Conservancy's million members also appreciate the work 
of your Committee. You have oversight over a significant number 
of programs, and you have had some major accomplishments, which 
we are seeing benefits of on the ground that I wanted to 
highlight.
    The Nature Conservancy supports sustained funding for the 
Forest Service research program. We share the goal with 
Congress and the Forest Service that our national forests are a 
treasured resource and they are to be used and enjoyed for the 
variety of benefits that they provide. And we see the research 
arm of the Forest Service as instrumental in ensuring that we 
receive those benefits.
    We think Forest Service research is most successful when it 
accomplishes, or has as part of it, three main themes, which I 
will highlight. First is connection to on-the-ground 
conservation and on-the-ground land management that will reduce 
the risks to the forests. We think that gives us the best bang 
for our buck, our tax dollars.
    Second is when the research is designed as a long-term 
investment to solve some problem or challenge that is facing 
all our forests. And then, third, as many of the other 
panelists have described eloquently, is that the research is 
conducted collaboratively, with other partners, private and 
public and universities.
    An example of the first one, research conducted on the 
ground, I wanted to use one from Arkansas that is applicable to 
this Committee. Several years ago, people in Arkansas 
recognized that there were major problems in the forest. Over a 
million and a half acres of oaks were dying from an outbreak of 
a native insect, because the woods were too dense. And this 
committee helped us highlight the problem, and a team was 
formed immediately afterwards, led by the Forest Service.
    They came together and, in traditional Forest Service style 
research, developed desired future conditions on what the 
forest should look like, based on historical data; started 
implementing treatments on about 200,000 acres, which is 
sizable in Arkansas on the ground; and then over the last 3 
years, have monitored the progress to see if we are actually 
achieving it, and what is the most effective way.
    One of the main benefits of this research, in addition to 
the sustained health of our forest, is that the local 
communities and the people who live there have an increased 
trust of the Forest Service because they participated in the 
plan, even helped with the monitoring, and they drive by it 
every day and see these more open, healthier forests.
    A second example of these themes would be the Southern 
Forest Resource Assessment, and the benefits of a long-term 
project. The forests in the South provide a significant amount 
of our Nation's lumber. They also harbor an incredible array of 
plants and animals.
    But the assessment identified some major alarming trends. 
The forests are being fragmented and converted at a rapid 
rate--rapidly than we knew about in each individual state. And 
that is because much of the land ownership is changing in the 
south. Timber companies are divesting of most of their land, 
and urban centers are rapidly expanding as people move to the 
South. And what is happening is we are losing those values from 
those forests, and it is having an economic impact on the area, 
as the timber industry changes.
    The Southern Forest Resource Assessment was critical in 
identifying these problems. The solution is really to develop a 
regional or national strategy, to be able to conserve these 
forests for all the values we enjoy. And we look forward to 
working with the Committee on the upcoming farm bill in ways 
that we can integrate some opportunities with the farm bill.
    And then the third example is collaboration. I mean, we 
believe different partners bring different perspectives, ideas, 
and resources to any research project. An example of this is 
the LANDFIRE Project, which was developed under the National 
Fire Plan and the Healthy Forest Restoration Act.
    It is a cooperative effort between the Department of 
Agriculture, the Department of Interior, and the Nature 
Conservancy. And its purpose is to develop the information, the 
data, the maps, the models, for us to assess the problems in 
the forests around the country, the altered fire regimes, the 
threat to communities, and to prioritize where we should work 
best to reduce these threats to the forests and to protect the 
values which we value. And it has been very successful.
    So in summary, the research projects that we believe have 
been most successful, they have those three themes: a 
connection to on-the-ground implementation that allows the 
managers to use the work immediately and the research results; 
second, projects that are long-term, that though the final 
report may come out years in the future, there is still 
information gathered that managers can use; and then third, 
collaboration with other organizations and agencies.
    Thank you very much for having the Conservancy testify, and 
we would be happy to answer any questions.
    [The prepared statement of Mr. Simon can be found in the 
appendix on page 68.]
    Senator Crapo. Thank you very much. I would like to thank 
the entire panel. You all stayed very close to your time 
limits, and that gives us the opportunity to have some good 
interaction with you.
    We also want to thank you for your written testimony and 
the efforts that you have gone to to help this Committee get a 
better handle on making sure that we have the best forest 
research program that we can possibly design and make it work 
well.
    Dr. Daley-Laursen, I would like to ask a couple of 
questions of you first. How would you suggest that more 
flexible dollars could be brought into the research system to 
enhance our capacity to respond to these emerging critical 
issues?
    Mr. Daley-Laursen. Thank you, Senator. Let me go to some of 
the insights that I said I could expand on a bit, that are 
beginning to emerge from our conversations. First of all, to 
reiterate that the base funding-competitive funding combination 
is a very important one, and the flexible funding generally 
shows up in the competitive category.
    And it has been bandied about a bit over the last several 
years, how might that competitive funding be accumulated. Just 
a suggestion, that perhaps it could be a pool, or pools, that 
have the following generative characteristics. These pools come 
about on an annual or multi-year basis. They come about as 
allocations from a variety of interested mission agencies, and 
possibly other partner organizations that might be interested 
in the issues that are identified as priority; not just one 
agency.
    So the flexibility draws from a variety of places. For 
example, EPA or others might be involved on energy. Traditional 
forestry and big science stuff might draw from USGS, and so on. 
So specific priority issues. Also, you might have RFP 
management by an external body, a non-profit organization or 
something like that, loosening up more flexible resources 
within the Government for distribution.
    Also, we might suggest that the Forest Service could adopt 
a collaborative investment model, where investments might be 
made in universities where they have strengths, and then 
investments be made in the Forest Service where they have 
strengths; and we don't try to cover the entire world, both 
organizations cover all the geography and all the issues. This 
could also result in some additional efficiencies.
    How much do universities and the Forest Service have of 
their base funding tied up in infrastructure and personnel? It 
is probably around 90 percent, on average, for both 
organizations. And this is a significant issue that both 
organizations need to undertake, and we will in our summit.
    It would be better, we think, if the Forest Service could 
move, with its large research budget, toward being more of a 
broker of flexible resources as a result of making some of 
those kinds of changes. Those are just some initial thoughts.
    Senator Crapo. All right. Thank you very much. I noted with 
interest your comment that there seems to be more competition 
than collaboration in the process currently, if I understood 
you correctly. Could you elaborate on that a little bit?
    Mr. Daley-Laursen. In the simplest form, Senator, it is the 
fiscal crisis, No. 1, and No. 2, and maybe equally important--
and when I say fiscal crisis, I just mean low expectation that 
we are probably going to see large increases in budget with 
large increases in demand for our service. But second, and 
probably equally important, is our attitude and our behavior.
    Regardless of the structure of a system, if the 
organizations are not, by their own mission, seeing a 
responsibility to collaborate at the conceptual level--in other 
words, think strategically about what the issues are, how they 
can put their resources together in a partnership form to 
complement each other--if you are not doing that in the most 
fundamental way, you are probably less efficient than you might 
be.
    Senator Crapo. Thank you very much.
    Mr. Daley-Laursen. So, the efforts to pursue those things.
    Senator Crapo. I have got a whole bunch of questions, but, 
Senator Lugar, why don't you take a shot for a minute here?
    Senator Lugar. Thank you, Mr. Chairman. I want to ask a 
question that was stimulated by Mr. Canavera's testimony, in 
line with Mr. Simon. Currently, in our part of the country the 
ash borer is having an impact, principally on ash trees in 
Michigan, but nevertheless the ash borer has been spotted in 
northern Indiana. That will not be the end of it.
    And essentially, the strategy has been to chop down large 
swaths of ash trees, with the hope that the borer could not 
transfer. But nevertheless, that has not been successful. In 
due course, why, we are going to have a premature harvest of 
the entire ash tree population, if something is not found.
    Now, this gets back to the research thing--without 
parochially dwelling on Purdue; but this one I am most familiar 
with because I visit with these people constantly about these 
problems. Two years ago, they began at least a concerted effort 
to try to find out how this wave of destiny is going to be met. 
As is often the case with research projects, people talk in 
terms of 5 years, 10 years. There is no particular hint that it 
may be successful at all. It is much like, in a much more 
cosmic sense, we are all beginning to discuss the avian flu, 
and so we keep going through all sorts of manifestations of 
that problem.
    The ash borer is not of that variety, but having seen the 
dutch elm disease when I was a boy, or a teenager, completely 
eliminate dutch elm trees in our part of the state, why, I am 
struck by how important this is.
    Now, genetic aspects of this are very important, and this 
is why--I don't call it a genome project at Purdue--but they 
are trying to find out really what is the constituency of a 
hardwood tree. It is obviously important, I am told, to try to 
get to how you would effect a change in the genetic part, if 
that is to be a part of the solution to the ash borer or any 
other sort of problem.
    But I am curious as to what your perceptions are, as we 
have these waves. And you mentioned one, Mr. Simon, in your 
testimony of a disease a while back. It is a problem now in the 
conservancy of our resources, but a very practical problem to 
various people who have need of these logs, in terms of our 
industry.
    And I am just curious about your perceptions of what sort 
of progress we are making on genetic research, and whether, in 
the case, say, of the ash borer, this is the proper course to 
follow in terms of the research and how to meet the dilemma.
    Mr. Simon. Thank you, Senator Lugar. We believe, like I 
think the rest of the panel, that the non-native pests that 
invade our forests are a major economic threat, in addition to 
the other threats to recreation and wildlife habitat, and it is 
a major problem.
    Though APHIS is responsible, with the Department of 
Agriculture, to try and keep them from entering the country, I 
think when they are here, and we have identified that they are 
a problem, it is the responsibility--the leadership of the 
Forest Service research arm is most critical and needed, 
working with the universities, to help combat it.
    I am not very familiar with the ash borer in your state, 
sir; but in similar issues that we have had in the South, we 
have tried to address them in two main ways. The first is by 
taking a good look at our forests themselves, and ensuring that 
they are in the healthiest condition possible. There is 
abundant information that indicates that healthier forests are 
able to withstand both native, but also non-native, pests 
better. So forests that are not too dense, that are not 
competing for nutrients and water, and the trees aren't 
stressed. And that plays into a lot of other national goals.
    And then, the second--and I don't know that there is a 
quick fix--but the research is really understanding the biology 
and the natural history of the critter, of the animal and how 
it responds to the trees; and also, understanding the trees, as 
you described, and what their genetic susceptibilities are. And 
then, once we know how it works and how the trees are 
susceptible and how the insects take advantage of them, we can 
develop some biocontrols. But that is the only way I know to 
address it.
    Senator Lugar. Do you have a thought, Mr. Canavera?
    Mr. Canavera. Yes, I do, particularly along the lines of 
growing better trees, where we could build in genetic 
resistance to particular insects and diseases. In loblolly pine 
in particular, we have made tremendous progress in this area. 
We have had devastating problems with the fusiform rust, which 
is a major disease in the Southeast. And we have made just 
tremendous gains in our traditional breeding programs to that 
disease.
    And certainly, with the advent of molecular biology, with 
the advent of genes that we know impart resistance to 
particular insects and disease, we now have the ability to use 
these genes and put them into a particular species of 
interest--for instance, the green ash--and very conceivably, 
develop trees which are resistant to this insect.
    You mentioned dutch elm disease. That is another very good 
example of where we could use this technology. Chestnut blight 
is a very good example of where we could use this technology.
    And I think the biggest help we could get from USDA at this 
time would be in studying these trees in the environment, to 
see how they do; and the whole deregulation process, seeing how 
these trees perform across a broad ecosystem. So we need to 
study the impact of these introduced genes in the environment, 
the impact they have on native insects, on native diseases and 
trees.
    So it is a very good area. I think it is a very fruitful 
area. I think it is one which we should be--for instance, the 
program at Purdue is, I think, being very innovative in 
applying cutting-edge technology to forestry. Thank you.
    Senator Lugar. Thank you.
    Senator Crapo. Thank you very much. Let me go to you, Mr. 
Schowalter. With regard to your testimony, you raised the issue 
of the process of gathering user input through the Forest 
Inventory Analysis program. Is the FIA program the best method 
for engaging users, in your opinion?
    Mr. Schowalter. We have been pleased with the results that 
have been undertaken in the past several years. This is a new 
approach, a relatively new approach, to hold the user group 
meetings, hold them across--I am particularly familiar with the 
South--hold them particularly across the South, and get all the 
users--industry, private consultants, environmental groups--all 
those to meet together and have input into the whole process.
    And I think it accomplishes several things. It does have 
the groups. You get a better group dialog going. You get an 
understanding of what each group is looking for, and sort of 
the recognition that there are going to have to be some 
compromises made, that everybody can't have everything they 
would like. So I think that helps the Forest Service a little 
bit in helping set priorities.
    And then, it just gives them the opportunity to hear from a 
wide variety of people at the same time. They sometimes can 
tend to be focused on their needs, and getting that outside 
input is very beneficial.
    So it has worked well for that program. I am not going to 
say it is the best vehicle for all their programs, but 
certainly, I think it is something that has worked well there.
    Senator Crapo. All right. Thank you. And also, in your 
testimony you encouraged the Forest Service to shift its 
research priorities more toward private lands issues. Could you 
expand a little bit on the factors that you are focusing on 
there that encourage that recommendation?
    Mr. Schowalter. Well, they have done an excellent job on 
National Forest System lands, of course. But the private 
landowner represents the largest single block of forest land in 
the U.S., two-thirds of it, so it is certainly something that 
needs some attention as well.
    With the decline of timber availability in the West on 
public lands, we have seen a shift to private lands. At the 
same time, the whole forestry community has undergone some 
significant change in industry. Globalization has forced a lot 
of industry to look overseas. So the private landowner is 
caught in some quandary: there is a demand for timber, on the 
one hand; but there is an uncertainty that the market is going 
to be there for it in the future.
    And so the role the Forest Service research can play is in 
helping develop new markets. And that can be markets not just 
for timber, but for these ecosystem services that I mentioned.
    Traditionally, the public has looked at clean water, clean 
air, aesthetics, those kinds of things, as being a sort of a 
``freebie'' that they get from forest land. And there are some 
possibilities with carbon sequestration--I always have trouble 
with that word--and water quality, to develop some trading 
programs, credits, that might work to help get some value back 
to the landowners.
    So I see several areas of research that could be very 
beneficial to private landowners, that I think would help the 
Nation's forests overall.
    Senator Crapo. Thank you. Dr. Daniels, in your testimony, 
you mentioned the need for a formal connection between the 
Forest Service and CSREES. What specifically do you envision as 
the components of a stronger relationship and formal linkage 
between the extension service and the Forest Service?
    Mr. Daniels. Well, I would say that, well, we do have two 
different divisions, you might say, under USDA here. We have 
the Cooperative Extension System, what used to be the 
Cooperative Extension System, CSREES, which has a natural 
resources division; tends to be, you might say, agriculturally 
dominated, all of the crop constituencies. But that is where I 
sit at the land grant university, with cooperative extension.
    But we have no formal connection, you might say, to the 
Forest Service. We have been cooperators traditionally over the 
years; known one another and so forth; but there are no funding 
linkages and there are very, I would say, relatively informal 
linkages between Forest Service research and we who, in 
extension, natural resources, who see--well, we are a 
technology transfer organization. And to my mind, we are an 
under-utilized one. We are sort of on the team already, but we 
sit on the bench a lot, you might say.
    So what I envision are greater linkages between the Forest 
Service in the research division and those of us who can 
translate that research, take that research and run with it, 
you might say, to the users, the user communities out there.
    And if we can be brought into the fold on a larger extent, 
and particularly so that researchers in their own mind think 
about technology transfer from the inception of a research 
project, rather than as an afterthought--the example I gave 
there attached to my testimony has to do with timber price 
dynamics after a natural catastrophe. This is a paper that I 
found was written by two of the Forest Service Southern 
Experiment Station scientists, published back in 2000.
    But it was published--and I think Dr. Bartuska mentioned 
earlier today about the importance of peer-reviewed journals to 
researchers--it was published in the American Journal of Ag 
Economics. Now, I try to watch research publications, but I 
don't see that one. A lot of users don't see those kinds of 
publications.
    So I was able to find this. These researchers looked at the 
timber price dynamics after a natural catastrophe like this. 
They wrote a little model to try to model how prices would 
change. And it so happens that, to test their model, they used 
timber prices after Hurricane Hugo in 1989 in South Carolina.
    What they found is that after a catastrophe like this, of 
course, we have a big supply bulge. The prices go down because 
so much timber is damaged. But after the salvage period is 
over, the residual timber has an enhanced value. It increases 
in value, once all the salvaged timber has been either utilized 
or is no longer any good.
    So what we have been able to do is use that to construct 
some what I think is extremely good advice to forest 
landowners. If you have a damaged stand of timber, maybe you 
have 40 percent of the pine saw timber that is still in good 
condition. Don't let anybody say to you, ``We need to clear-cut 
the whole thing and start over,'' because that 40 percent is 
going to have an increased value in about a year's time, 
probably.
    So I guess what I am saying is, that is an example of how a 
piece of research has been brought out or developed by the 
Forest Service; but there is a need for folks who can look at 
it, understand what it means, and put it in common language so 
that that tree farmer out there doesn't make a decision mistake 
when something like this comes along.
    So I would like to see greater linkages between us. We 
don't have common meetings at this time, for example. We see 
one another at a Society of American Foresters meeting perhaps, 
or somewhere like that, but there is no formal time for us to 
come together and really compare notes. So I would like to see 
some of that.
    And as I have mentioned, I would like to see researchers 
begin to think more about that application of the research that 
they are developing, from the very beginning; and have some 
technology transferrers--if that is a word--in on things from 
the very beginning. I think it would be a benefit to all of us, 
and it would be a real efficiency move, as Dr. Laursen was 
talking about.
    Senator Crapo. Thank you. Senator Lugar?
    Senator Lugar. Thank you again, Mr. Chairman. Dr. Daniels 
has underlined a point I was attempting to make with the 
previous witness, and that is----
    Mr. Daniels. I caught that.
    Senator Lugar [continuing]. Somewhere there is a lot of 
good information out there in America.
    Now, a part of the role of our Government ought to be to 
make that information available to a lot of people. Speaking 
just from my role, again, as a tree farmer, information 
available to me is very small. I don't want to be difficult 
about it, but I would say somebody in America may be doing 
something, but I don't know about it.
    I am intensely interested in it, not only as a member of 
this Committee, but as a tree farmer. So in any event, I am 
hoping we can sort of loosen up and find out where these papers 
are, and who is reading what or who is writing what; because 
the practical comment that you made there is profoundly 
important.
    On the basic question in my state, it comes down to this. 
We have these 54,000 jobs and an industry that is threatened 
but that needs hardwood. And so they say it takes 70 years for 
a black walnut to mature. If somebody doesn't plant some black 
walnuts in the State of Indiana now, conceivably we may get 
them from wherever, but that is less likely--in fact, unlikely 
to be economical in terms of transportation costs and all the 
rest of it.
    So why would anybody in Indiana want to plant black 
walnuts, or anything else? Now, essentially, I can say, ``Well, 
you have got 10 acres there that you are not doing anything 
with. You used to have dairy, but there is nothing there now. 
Why not try out walnuts?'' Or various anecdotal situations of 
this variety.
    Well, when I begin to press, ``What are the economics of 
this? Why should somebody invest money in planting those trees, 
as opposed to the stock market or something else?'' Hard 
pressed; without just simply the good humor of it, or they are 
beautiful, or you'll love the experience, or so forth.
    And what I am really driving at is the need for the 
plethora--and we don't need all the investment letters we all 
receive almost daily of people who want our money for the stock 
market, the bond market, esoteric projects in South America. 
There are good reasons, I believe, to invest in planting trees. 
And they are the joy of doing so; but they can be, over the 
course of generations, a very profitable thing to do, likewise.
    Now, one of the ways they might be that has been touched 
upon by Mr. Schowalter is the carbon sequestration issue. We 
have had hearings before this Committee for at least 5 years, 
going through this. In Illinois, at least some market was 
established. We even had somebody give us some quotes 1 day. 
But to say the least, you really have to press awfully hard in 
America to find anything out about this, and this is so 
important.
    For example, here I am with my 200 acres of trees sitting 
there. They are not going to go anywhere. To the extent that I 
was able to make a contract, because of the carbon that I am 
sequestering through those trees, and here right in the 
middle--not in the middle of Indianapolis, but inside the city 
limits--a lot of carbon floating around, as a matter of fact; a 
power and light company would be interested in these sorts of 
things.
    And yet, the inability, in terms of our research and our 
elements of Government, to get people together on these issues 
is just profound. It simply is not occurring, even though it is 
floated often as an esoteric idea in hearings like this.
    And I am sort of trying to come to grips with how we tell 
somebody it is a good investment to plant trees; it is a good 
investment to keep them standing there really for long periods 
of time, and to care for them.
    Now, beyond that, I would just say that it appears to me 
that we are going to have to try to think through what the 
actual marketing situation is. You mentioned sometimes people 
are fearful because they are not sure a market will be there.
    Now, before Senator Lincoln left--and she will not feel I 
am betraying her confidence--but she was anecdotally picking up 
on one of your points, ``One of my factories in Arkansas that 
was dealing with hardwoods went to China. And as a matter of 
fact, they are buying the trees that are in Arkansas to take 
them to China, right along with them.''
    Now, it is conceivable that we may, during some phobic 
period in American history, stop trees from getting outside 
Indiana, or quite apart from the United States; but I doubt it. 
My guess is, the market for the trees is going to be there. It 
may not be in America.
    And that is the importance of working with industry, to 
sharpen up the niches in which we can have an advantage. I 
mentioned this more careful utilization of every board foot out 
of a hardwood log--tremendously important. We can do those 
kinds of things to get an edge. We will have to do them. For 
our furniture people in Indiana simply to say, ``Our market is 
being stolen. What are you going to do for us?'' Well, not very 
much, unless you shape up your business plan.
    But the amount of information--I would just get back to 
this--floating around as to how this might be profitable for 
anybody is pretty thin. And I just conclude, Mr. Chairman, by 
saying there are some people who spend a lot of time with 
this--more than the Chairman and I can.
    I was reading of the success of the Harvard endowment. Now, 
they have invested in trees as a part of their portfolio. Well, 
my eyes lit up. How in the world would they have come to that 
conclusion? Well, they have come to the conclusion because they 
have had some time to analyze the long-term value of this kind 
of investment and how it stacks up with all sorts of other 
things. And this is an extraordinarily successful endowment 
plan; sort of the gold standard, of sorts, in Forbes or what-
have-you that rate these situations. But trees are a part of 
this portfolio.
    And so it appears to me that there is some information out 
there, but it is not really getting down to this person I want 
in Indiana to plant 10 acres of trees, or 30 acres; do 
something that really enhances. Now, thank goodness, some 
people are doing it anyway, because they simply love forestry; 
and more power to them. But to be serious about this, we will 
need to do this.
    So my plea is to each of you, in your own way, as advocates 
within your group, as it was with our Assistant Secretary of 
Agriculture, to help us disseminate the information that really 
gins up enthusiasm for what we are talking about today.
    That is really not a question.
    [Laughter.]
    Mr. Daniels. You needed that to vent. You needed that. Yes.
    Senator Lugar. I get so carried away by the testimony and 
by the occasion. Do any of you have any comments on all of 
this?
    Mr. Daniels. I would make a comment. I spend part of my 
time in extension in Mississippi. See, I teach a little short 
course for forest landowners, called ``Analyzing Your Forestry 
Investment.''
    Senator Lugar. Oh, there you go.
    Mr. Daniels. And the whole idea is applying, you might say, 
economic decisionmaking to growing trees. Now, we have an 
advantage in Mississippi over Indiana, I would say. Our 
rotations are shorter and--well, pine saw timber values are a 
little bit lower than number-one walnut logs, but there is a 
whole lot more of them. So I tell landowners--and it is easy to 
show, in present value analysis--that growing pine saw timber 
in the South is a good place to put your money.
    And I am quick to say that it is not the first place; it is 
not a ``get rich quick'' kind of enterprise. And it is 
something that you shouldn't put your money there first. If you 
are a family person, you need to have insurance and savings and 
all those other things. But once you do have a little bit of 
extra money, it certainly is a competitive place to invest your 
money. And I am confident it could be shown for walnut in 
Indiana. But there are other reasons.
    Senator Lugar. But you have a disciplined course of study--
--
    Mr. Daniels. Absolutely.
    Senator Lugar [continuing]. In which you are able to impart 
to students this sort of information.
    Mr. Daniels. Well, for forestry students, natural resource 
economics or forest economics is a required course. So that is 
coming through in our education system.
    Senator Lugar. Yes.
    Mr. Daniels. But it is a case that can be made.
    Senator Lugar. Pardon me, Mr. Chairman, just one more 
anecdote. We have a lot of yellow poplar in Indiana. It grows 
along creek beds and rivers and so forth----
    Mr. Daniels. Great tree.
    Senator Lugar [continuing]. Almost like weeds. That is not 
comparable to your good logs in Mississippi. But nevertheless, 
it may be the board-foot value of a 10th, or even a 15th, of a 
veneer walnut log, let's say. Now, I routinely have harvests of 
poplar trees on my farm, because they grow, as I say, very, 
very rapidly.
    Mr. Daniels. They do.
    Senator Lugar. In the past, the value wasn't so good. But 
now our forest industry--that is, the furniture people--other 
people have come in, with the benefit of research, and they 
said, ``If you add a particular substance to this poplar--'' I 
don't know whether it stiffens up the log, or it changes the--
``but you can get a mighty good piece of furniture out of this. 
This is not the same old poplar it used to be, the 
combination.''
    So as a result, what is sort of a short-term situation here 
can become a long-term business in the manufacture of this 
thing. And it is this combination of these two groups working 
together--those who are the growers, the private owners; and 
the industries and the research community--that can transform 
even these cycles that are not so long for some of our logs.
    Thank you.
    Senator Crapo. Well, thank you very much, Senator. And we 
always tend to run out of time in these hearings before we run 
out of questions; although I do want to ask another couple of 
questions before we wrap up here. And certainly, Senator Lugar, 
if you have got any more, we will do that.
    But Mr. Daley-Laursen, I wanted to ask you if you would 
talk for just a moment about the concept of organizing our 
research at the regional level, and what your thoughts are on 
that, and how we can best achieve that type of an objective, if 
we should.
    Mr. Daley-Laursen. Thank you, Senator Crapo. And if I 
could, Senator Lugar, I will send you a letter with some 
comments on your question on genetics, and also on the last 
conversation. Very good questions, and things that we are all 
worrying about.
    Senator Crapo and Senator Lugar, the point about 
regionality was, first and foremost, to say that the best and 
brightest people are figuring out that this is a very efficient 
and effective way to operate. I think it is partly because, for 
ecological reasons, cultural reasons, political reasons, 
economic reasons, regions have identity, and regions have 
character; and so issues are common in them, and so there are 
efficiencies in people coming together. I want to state that 
that is a simple point, but a profoundly important point.
    So good people are rallying at the regional level. There 
are examples right now of places where The Nature Conservancy, 
Forest Service, state and private forestry, NASF, universities, 
whatever, in various combinations are coming together around 
policy, law, and science, at the regional level. They are 
coming together around watershed cooperatives, paired-study 
watershed cooperatives that can only really be done across 
massive landscape and, largely, industry-university 
cooperation.
    Fire management and restoration is another one where there 
is a regionality.
    And the last example I would share with you relates to 
Senator Lugar's point. Web-based interfaces for landowners, 
that bring together at that interface people who are scientists 
who have data information, models, and predictive ability. On 
the other side of the interface is the landowner or the person 
who is in the business of making decisions about whether land 
should be converted: TNC folks like Bill Gann, working 
investments in nature; industry folks wondering, ``Should we 
convert to a TEAM or a REIT, and who do we trade with?''; small 
landowners who are like so many millions of others--38 percent 
of the housing starts in this country are in the wildland urban 
interface; landowners who are faced with decisions every day 
about, ``In my heart and my head, how do I make a decision 
about whether that should become a housing project, or whether 
I should keep it in my family? Can I make money? On what?'' So 
that is another way that regionally we are beginning to see 
some cooperation.
    Senators I wanted to--and I could go around and around and 
on and on about this, extolling the virtues of various groups 
that are already making this happen. You both probably heard at 
the White House conference many examples of collaborative 
conservation, as it was dubbed by the Administration. I would 
urge people to look at the 150 examples. Almost all of them 
have a regional flavor to them, and can give us some 
instruction.
    And the last thing I would suggest is that we have some 
models out there that we could play with more: the USGS model 
of cooperative fisheries and wildlife programs that bring 
agencies and universities together around regional issues; 
cost-sharing situations; CESUs, cooperative ecosystem study 
units. These are mechanisms that currently exist that we can 
use to build on the power of regional programs.
    Senator Crapo. Well, thank you very much. And as I 
indicated, I have a lot more questions than we have time. In 
fact, we have already started to push ourselves a little bit, 
with regard to other obligations.
    So I am going to have to wrap up the hearing; although I do 
have a number of questions for each of the witnesses, and would 
ask if you would mind if we could submit them to you in writing 
and get some responses from you on them.
    And other Senators may want to do the same thing. So we 
will try to collect any of those kinds of questions that others 
who weren't able to get here, or who didn't get to ask all 
their questions, might want to ask you to respond to.
    I again want to thank all of our witnesses for the 
excellent input that you have provided. This is a very critical 
issue, and one which we intend to pay very close attention to. 
I think you can see that there is a real desire to make sure 
that we get things working even better than they are now, and 
to improve our performance here. And we look forward to working 
with you as we seek to achieve these objectives.
    With that, this hearing is adjourned. And thank you again, 
all, for your support.
    [Whereupon, at 12:13 p.m., the Subcommittee was adjourned.]
      
=======================================================================


                            A P P E N D I X

                            October 27, 2005



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] T8450.001

[GRAPHIC] [TIFF OMITTED] T8450.002

[GRAPHIC] [TIFF OMITTED] T8450.003

[GRAPHIC] [TIFF OMITTED] T8450.004

[GRAPHIC] [TIFF OMITTED] T8450.005

[GRAPHIC] [TIFF OMITTED] T8450.006

[GRAPHIC] [TIFF OMITTED] T8450.007

[GRAPHIC] [TIFF OMITTED] T8450.008

[GRAPHIC] [TIFF OMITTED] T8450.009

[GRAPHIC] [TIFF OMITTED] T8450.010

[GRAPHIC] [TIFF OMITTED] T8450.011

[GRAPHIC] [TIFF OMITTED] T8450.012

[GRAPHIC] [TIFF OMITTED] T8450.013

[GRAPHIC] [TIFF OMITTED] T8450.014

[GRAPHIC] [TIFF OMITTED] T8450.015

[GRAPHIC] [TIFF OMITTED] T8450.016

[GRAPHIC] [TIFF OMITTED] T8450.017

[GRAPHIC] [TIFF OMITTED] T8450.018

[GRAPHIC] [TIFF OMITTED] T8450.019

[GRAPHIC] [TIFF OMITTED] T8450.020

[GRAPHIC] [TIFF OMITTED] T8450.021

[GRAPHIC] [TIFF OMITTED] T8450.022

[GRAPHIC] [TIFF OMITTED] T8450.023

[GRAPHIC] [TIFF OMITTED] T8450.024

[GRAPHIC] [TIFF OMITTED] T8450.025

[GRAPHIC] [TIFF OMITTED] T8450.026

[GRAPHIC] [TIFF OMITTED] T8450.027

[GRAPHIC] [TIFF OMITTED] T8450.028

[GRAPHIC] [TIFF OMITTED] T8450.029

[GRAPHIC] [TIFF OMITTED] T8450.030

[GRAPHIC] [TIFF OMITTED] T8450.031

[GRAPHIC] [TIFF OMITTED] T8450.032

[GRAPHIC] [TIFF OMITTED] T8450.033

[GRAPHIC] [TIFF OMITTED] T8450.034

[GRAPHIC] [TIFF OMITTED] T8450.035

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                            October 27, 2005



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] T8450.036

[GRAPHIC] [TIFF OMITTED] T8450.037

      
=======================================================================


                         QUESTIONS AND ANSWERS

                            October 27, 2005



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] T8450.038

[GRAPHIC] [TIFF OMITTED] T8450.039

[GRAPHIC] [TIFF OMITTED] T8450.040

[GRAPHIC] [TIFF OMITTED] T8450.041

[GRAPHIC] [TIFF OMITTED] T8450.042

[GRAPHIC] [TIFF OMITTED] T8450.043

[GRAPHIC] [TIFF OMITTED] T8450.044

[GRAPHIC] [TIFF OMITTED] T8450.045

                                 <all>

</pre></body></html>
